United States Court of Appeals
For the First Circuit
No. 18-1197
ERIK DIAZ-COLON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge.
Torruella and Lynch, Circuit Judges.
JUDGMENT
Entered: February 20, 2020
Pro se petitioner Erik Diaz-Colon has filed an application for a certificate of appealability
("COA") as to the district court's denial of his motion filed under 28 U.S.C. § 2255. As an initial
matter, petitioner has filed two motions to supplement. Both motions are allowed, and the content
of the tendered supplements have been considered to the extent relevant and appropriate.
After careful review of the district court's decisions, relevant portions of the record, and
each and every argument sufficiently developed in petitioner's COA application and supplemental
filings, we conclude that the district court's denial of the § 2255 motion was neither debatable nor
wrong, and that petitioner has failed to make "a substantial showing of the denial of a constitutional
right." 28 U.S.C. § 2253(c)(2); see Slack v. McDaniel. 529 U.S. 473, 484 (2000).
Accordingly, the application for a COA is denied, and the appeal is terminated.
/

By the Court:
Maria R. Hamilton, Clerk

APPENDIX A

Case 3:16-cv-02799-FAB Document 31 Filed 12/27/17 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
ERIK DIAZ-COLON,
Petitioner,
Civil No. 16-2799 (FAB)
related to
Criminal No. 09-228 [11] (FAB)

v.
UNITED STATES OF AMERICA,
Respondent.

MEMORANDUM AND ORDER
BESOSA, District Judge.
A district court may refer a pending motion to a magistrate
judge

for

a

§ 636 (,b) (1) (B) ;

report

and

Fed.R.Civ. P.

adversely -affected by - the

See

recommendation.
72(a);
report

Loc.
and

28

U.S.C.

Any party

Rule 72(b).
recommendation

may

file

written objections within fourteen days of being served with the
magistrate

judge's

Loc.

report.

Rule

72(d).

See

28

U.S.C.

§ 636(b) (1) . . A party that files a timely objection is entitled
to a de novo determination of "those portions of the report or
specified.proposed findings or recommendations to which specific
objection

is

made."

F.Supp.2d 262, 264
F.Supp.2d
Raddatz,

189,

v.

Pichis,

Inc.,

(D.P.R. 2010); Sylva v. Culebra Dive Shop,

191-92

447 U.S.

Ramos-Echevarria

667,

(D.P.R.
673

2005)

(1980)).

rule precludes further review.

(citing

United

389
v.

Failure to comply with this

See Davet v. Maccorone,

APPENDIX B

States

698

973 F’. 2d

Case 3:16-cv-02799-FAB Document 31 Filed 12/27/17 Page 2 of 3

Civil No. 16-2799 and Criminal No. 09-228 (FAB)

2

22, 30-31 (1st Cir. 1992). Borden v. Secretary of H.H.S., 836 F.2d
4, 6 (1st Cir. 1987).

In conducting its review, the court is free

to "accept, reject, or modify, in whole or in part, the findings
or recommendations made by the magistrate judge."

28 U.S.C. § 636

(a) (b)(1); Templeman v, Chris Craft Corp., 770 F.2d 245, 247 (1st
Cir. 1985); Alamo Rodriguez v. Pfizer Pharmaceuticals, Inc., 286
F.Supp.2d 144,

146

(D.P.R.

2003).

Furthermore,

the Court may

accept those parts of the report and recommendation to which the
parties do not object.

See Hernandez-Mejias v. General Elec., 428

F.Supp.2d 4, 6 (D.P.R. 2005)

(citing Lacedra v. Donald W. Wyatt

Detention Facility, 334 F.Supp.2d 114, 125-126 (D.R.I. 2004)).
On July 18, 2017, the United States magistrate judge issued
a Report and Recommendation ("R&R")

(Docket No. 17), recpmmending

that petitioner Diaz-Colon's motion to vacate, set aside or correct
his sentence pursuant to 28 U.S.C. § 2255 (Docket No. 1) be denied.
The _parties_ had until

August

1,

2017

to

object

to

the

R&R.

Petitioner did not object by that date, and the Court adopted the
magistrate judge's R&R, denied the section 2255 motion and entered
judgment

dismissing

the

case.

Subsequently,

however,

on

September 12, 2017, petitioner filed a motion for leave to object
to the magistrate judge's R&R and an objection (Docket Nos. 22 and
23 . )

The Court granted the motion,

and set

aside

its

order

adopting the magistrate judge's R&R and vacated the judgment that

Case 3:16-cv-02799-FAB Document 31 Filed 12/27/17 Page 3 of 3

Civil No. 16-2799 and Criminal No. 09-228 (FAB)
had been entered (Docket No. 24.)

3

The United States responded to

petitioner's objection on December 26, 2017

(Docket No. 30.)

The Court has made an independent examination of the entire
record

in this

United

States'

case,

including petitioner's

response,

and

ADOPTS

the

objection
magistrate

and

the

judge's

findings and recommendations.
Accordingly, petitioner Diaz-Colon's section 2255 motion is
DENIED.
This case is DISMISSED with prejudice.
Judgment shall be entered accordingly.
If petitioner files a notice of appeal,
appealability

shall

issue

because

petitioner

no certificate of
has

not

made

substantial showing of the denial of a constitutional right.
U.S.C. § 2253 (c) (2) .
IT IS SO ORDERED.
San Juan, Puerto Rico, December 27, 2017.

s/ Francisco A. Besosa
FRANCISCO A. BESOSA'
UNITED STATES DISTRICT JUDGE

a
28

Case 3:16-cv-02799-FAB Document 32 Filed 12/27/17 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
ERIK DIAZ-COLON,
Petitioner,
Civil No. 16-2799 (FAB)

v.
UNITED STATES OF AMERICA,
Respondent.

JUDGMENT

In accordance with the ORDER entered today

(Docket No. 31),

this case is DISMISSED with prejudice.
This case is now closed for statistical purposes.
IT IS SO ORDERED.
San Juan, Puerto Rico, December 27, 2017 .

s/ Francisco A. Besosa
FRANCISCO A. BESOSA
UNITED STATES. DISTRICT JUDGE

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

ERIKDIAZ-COLON,
Petitioner,
CIVIL NO. 16-2799 (FAB)
Re: Criminal No. 09-228 (FAB)

v.
UNITED STATES OF AMERICA,
Respondent.

REPORT AND RECOMMENDATION
Pending before this Court is petitioner Erik Diaz-Colon’s (“Petitioner” or “Diaz”)
motion under 28 U.S.C. § 2255 to vacate, set aside, or correct his sentence in Criminal
Case No. 09-228 (FAB). (Civ. ECF No. 1). Petitioner’s motion raises several claims of
ineffective assistance of counsel. (Id.). The Government opposed. (Civ. ECF No. 13) and
Diaz replied. (Civ. ECF No. 16). Diaz’s motion was referred to the undersigned for a report
and recommendation. (Civ. ECF No. 5).
BACKGROUND1
On October 8, 2009, Diaz was indicted in a Superseding Indictment with a
conspiracy to commit carjacking in violation of Title 18, United States Code. Section 371;
conspiracy of deprivation of rights (to be free from unreasonable searches and seizures
under color of law) in violation of Title 18, United States Code. Section 241; and
deprivation of rights under color of law in violation of Title 18, United States Code.

1 Portions of the Background are taken from the Government’s Response (Docket No. 13) in light of their
accuracy upon a review of the docket.

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 2 of 11
Erik Diaz-Onlnn v. United States of America
Civfl No. 16-2799 (FAB)
Report and Recommendation
Page 2

Sections 242 and 2. On June 2, 2011, Diaz filed a Motion for Change of Plea. (Crim. ECF
No. 508). The change of plea hearing was scheduled to be heard on June 15,2011. On that
day, the Government informed to the Court that it was withdrawing the offer because it
had not taken into consideration new evidence. (Crim. ECF No. 530). The Court granted
the Government’s motion to withdraw its plea offer and denied Defendant’s motion for
specific performance of the proposed plea agreement. (Crim. ECF No. 544)- Following a
jury trial, Petitioner was convicted on the three counts of the Superseding Indictment and
sentenced to life imprisonment.
Petitioner timely appealed his sentence. (Crim. ECF No. 864). On appeal, Diaz,
through counsel and in several pro se supplemental briefs, argued that: (1) his Indictment
was constructively amended because the jury instructions and verdict form, but not the
Indictment, specified that he was being charged with the “death resulting” form of the
offenses described in sections 241 and 242; (2) his Indictment was constructively
amended on the conspiracy to commit carjacking count; (3) the Government improperly
withdrew a plea offer it made to him before trial; and (4) the jury verdicts on two. of his
counts of conviction were inconsistent. United States v. Vizcarrondo-Casanova. 763 F.3d
89,97 (1st Cir. 2014).

.

'

On August 18,2014, the Court of Appeals for the First Circuit affirmed Petitioner’s
conviction. Id. at 104 (Crim. ECF No. 1029). On October 5, 2015, the Supreme Court
denied certiorari. Dlaz-Colon v. United States.__US__ , 136 S.Ct. 30 (2015).
STANDARD
Under Section 2255, a federal prisoner who claims that his “sentence was imposed
in violation of the Constitution or laws of the United States” may “move the court which

Case 3:16-ev-02799-FAB Document 17 Filed 07/18/17 Page 3 of 11
Erik Diaz-Col6n v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 3

imposed the sentence to vacate, set aside or correct the sentence.” 28 U.S.C. § 2255(a).
Section 2255 provides the primary means of a collateral attack on a federal sentence. See
United States v. DiRusso, 535 F.2d 673,674-676 (1st Cir. 1976) (§2255 grants jurisdiction
over post-conviction claims attacking the “imposition or illegality of the sentence.”);
Rogers v. United States, 180 F.3d 349> 357> n. 15 (1st Cir. 1999) (motion under §2255 is
the exclusive remedy in the sentencing court for any errors occurring at or prior to
sentencing, including construction of the sentence itself.”),

.

Under the Sixth Amendment of the United States Constitution, defendants are
entitled to effective assistance of counsel pursuant to the standard established in the
landmark case of Strickland v. Washington. 466 U.S. 668,104 S.Ct. 2052 (1984). To find
ineffectiveness, counsels performance, should be so prejudicial to undermine the
confidence in the fairness of trial or its resulting conviction. Title 28, United States Code.
Section 2255.
In order to establish such a claim, Petitioner must make a two part showing. First,
defense counsel s performance must be deficient, that is, the attorney must have “made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” Strickland. 466 U.S. at 687, 104 S.Ct. 2052. On
top of a flawed performance, there must also be prejudice to the defense. Id It must be
reasonably likely that the result of the criminal proceeding would have been different,
■

at 696, and that likelihood “must be substantial, not just conceivable.” Harrington v.

, lichter, 562 U.S. 86, 112,131 S.Ct. 770, 792 (2011); see also Gonzalez-Soberal v. United
States, 244 F.3d 273, 278 (1st Cir. 2001) (“[A] reasonable probability is one ‘sufficient to
undermine confidence in the outcome ). Jo applying this test, judicial scrutiny of

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 4 of 11
Erik Diaz-Cnlnn v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 4

counsel’s performance must be highly deferential. Petitioner has the burden to show
ineffective assistance by a preponderance of the evidence.
The Court finds Petitioner Dlaz-Colon has not met this burden in the case at bar
for the reasons well explained by the Government in its Response.
LEGAL ANALYSIS2
Petitioner Diaz’s § 2255 motion raises several claims of ineffective assistance of
counsel, to wit, that his counsel failed to: (1) properly assist him during the plea
bargaining process; (2) advise him of his right to testify at trial; (3) object to' the
constructive amendment of the Superseding Indictment; (4) object to no definition of
reasonable doubt; and (5) present two alibi witnesses. Diaz requested an evidentiary
hearing.
For the reasons set forth below, it is recommended that all of Petitioner’s claims be
denied without an evidentiary hearing.
A. The Plea Bargaining Process.
Petitioner Diaz asserts that the miscalculations made by his trial counsel of the
revised plea agreement terms that the Government was offering, led to the Government
withdrawing its plea offer, in violation of his Sixth Amendment right to the effective
assistance of counsel. Petitioner’s counsel thought that ,the 5-level enhancement for
brandishing a firearm did not apply and attempted to obtain a 3-level enhancement
instead. Diaz alleges that counsel’s “erroneous calculated enhancement” constituted
ineffective assistance of counsel. (Civ. ECF No. 16, p. 4) The Court agrees with the

2 The Court relies mainly on the Government’s discussion due to its accuracy and for judicial economy in
an effort not to re-invent the wheel.

Case 3:,16-cv-02799-FAB Document 17 Filed 07/18/17 Page 5 of 11
Erik Dlaz-Colon v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 5

Government s analysis that these actions 'were [not] outside the wide range of
professionally competent assistance”’. Teieda v. Dubois. 142 F.3d 18, 22 .(ist Cir. 1998)
(citing Strickland, 466 U.S. at 690,104 S.Ct. at 2052). Upon review of the docket and the
evidence presented, it is clear that defense counsel acted in good faith and had his client’s
best interest in mind. Counsel could not foresee that the plea negotiations would end upon
the Government’s withdrawal of the proposed plea agreement.
“The prejudice prong requires the petitioner to establish that ‘there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceedings
would have been different’ ”. Prou v. United States. 199 F. 3d 37 (1st Cir. 1999). As the
Government very well points out, Diaz’ allegations fail to include the fact that the
proposed plea agreement was a Type C plea agreement Petitioner in his own motion
states that “the prejudice prong continues to demand a reasonable probability that the
result of the proceeding would have been different, but, because a rejected plea, rather
than a jury verdict, is at issue a petitioner must show that: .... (3) the trial court would
have accepted its terms...” (Lafler v. Cooper. 566 U.S. 156,132 S.Ct. 1376 (2012)1 Diaz
fails to establish that the Court would have accepted the terms of the agreement had the
agreement been executed and that the judgment and sentence imposed would have been
less severe. Id. Thus, Petitioner’s motion fails to comply with the Strickland’s prejudice
test requiring to show a reasonable possibility that the outcome of the plea process would
have been different with competent advice.

Case 3M6-CV-02799-FAB Document 17 Filed 07/18/17 Page 6 of 11
Erik Diaz-Qilnn v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 6

B.

Right to Testify and Alibi Witnesses.
Diaz posits that his attorney not only failed to advise him as to his right to testify,

jut also failed to present telephone records and to call two alibi witnesses who could rebut
the Government’s testimony as to receipt of a phone call.
As to the first matter, the Court must side with the Government. Petitioner’s
“allegation regarding being advised of his right to testify is belied by his own attachments
to his motion. In his proposed plea agreement, Diaz acknowledged that by pleading guilty
he would have waived several rights.” (Civ. ECF No. 13, p. 5). One of the waived rights is
the right to testify at trial. At the hearing in which the plea agreement was withdrawn,
Petitioner objected and argued that he had already accepted its terms. (Civ. ECF No. 530).
Diaz also states in his motion (Civ. ECF No. 1) that, had his attorney not advised not to
sign the agreement because of the enhancement calculation, he would have. Therefore,
Petitioner’s admission that he accepted the terms of the plea agreement, which included
the waiver of his right to testify at trial, made him aware that if he proceeded to trial he
had the right to testify.
Petitioner further alleges that his counsel was ineffective for not presenting into
evidence his telephone record and two alibi witnesses to rebut the allegation made by the
Government that he had received a phone call in which he ordered the killing of the
victim. “Neither the government nor the defendant presented the telephone records as
exhibits during trials”. (Civ. ECF No. 13 p.6).
The habeas court must “evaluate the [challenged] conduct from counsel's
perspective at the time,” Strickland. 466 U.S. at 689,104 S.Ct. at 2065, considering “the
totality of the circumstances before it,” Perron v. Perrin, 742 F.2d 669,673 (1st Cir. 1984),

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 7 of 11
Erik Dlaz-Colon v. United States nf Ampripa
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 7

and making “every effort... to eliminate the distorting effects of hindsight,” Strickland.
466 U.S. at 689,104 S,Ct. at 2065. It “must indulge a strong presumption that Counsel's
conduct falls within a wide range of reasonable professional assistance; that is, the
defendant must overcome the presumption that, under the circumstances, the challenged
action might be considered sound trial strategy.’ ” Id. (citation omitted). Moreover, the
court must not only find that defense counsel's performance was deficient, but that it was
so prejudicial as to undermine confidence in the outcome of the trial; see Id., at 693-94,
104 S.Ct. at 2067-68, and the fundamental fairness of the result, Lockhart v. Fretwell. 506
U.S. 364? 113 S.Ct. 838 (1993)* Also, the decision to use certain evidence or present
certain witnesses at trial is a strategic one decided by counsel. The decision whether to
call a particular witness is almost always strategic, requiring a balancing of the benefits
and risks of the anticipated testimony. The witness may not testify as anticipated.
(United States v. Porter. 924 F.2d 395 (1st Cir. 1991).
Diaz is aware that there was testimony indicating that it was a third person who
ordered the killing (Civ. EFC No. 16 p. 19). The jury was able to hear testimony as to both
and evaluate the evidence presented to it. The Court therefore finds that any further
testimony of any-alibi witnesses or telephone records would not have guaranteed a
different outcome. The presentation of the telephone records is only one factor of
Petitioner s participation in the ordering of the killing, additional testimony would have
most likely not changed the outcome of the jury’s decision and Diaz has not established
that it would have.
Upon review of the docket, the Court determines that counsel’s strategy was to
make the Government meet its burden of proof. Counsel’s decision not to call any

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 8 of 11
Erik Diaz-Qlnn v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 8

additional witnesses regarding the telephone records falls well within the scope of
“informed professional judgment”. Porter. 924 F.2d at 397- Yet, counsel did call Diaz’ wife
to testify to rebut the one witness who testified about the phone call. Therefore, testimony
indicating that no call was received was indeed presented. This did not “deprive the
defendant of a fair trial.” Strickland. 466 U.S. 687,104 S. Ct. at 2064. Thus, Diaz has not
met his burden to proof ineffective assistance of counsel under this ground.
Thus,, the Court finds that defense counsel’s performance was adequate and that
the defendant was not deprived of a fair trial. Id.
C.

Failing to Object “to no definition of reasonable doubt” in the Jury

Instructions.
Diaz also claims that his counsel was ineffective as he did not object to the
exclusion of the definition of reasonable doubt in the jury instructions. (Civ. ECF No. 1-2,
pp. 24-27). He alleges that the failing to object to the exclusion of the definition of
reasonable doubt renders ineffective assistance of counsel. Petitioner cites that Sullivan
V T.nnsiana- 508 U.S. 275,113 S.Ct. 2078 (1993) “held that a defective reasonable doubt
instruction to a jury is a structural error that can never be treated as harmless error.” The
case above makes reference to Cage v. Lousiana, 498 U.S. 39> m S.Ct. 328 (1990), in
which the definition provided of reasonable doubt was determined to be unconstitutional.
The First Circuit has “repeatedly noted ‘that reasonable doubt does not require
definition.’” United States v. Rodriguez-Cardona, 924 F.2d 1148, 1160 (1st Cir. 1991))“Thus, ‘an instruction which uses the words reasonable doubt without further definition
adequately apprises the jury of the proper burden of proof. Id. (quoting United States v.
Ademai. 170 F.3d 58,66 (1st Cir. 1999)) (citations omitted). Here, the trial court properly

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 9 of 11
Erik Diaz-Colon v. United States of Amp.rira
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 9

instructed the jury that the government retained the burden of proving petitioner guilty
beyond a reasonable doubt. (Civ. ECF No. 1-7, pp. 3-6) The jury instruction given in the
case at hand does not violate Petitioner’s due process because there is not an establishec
requirement by law that the court define reasonable doubt. Hence, Diaz’ claim is illfounded.
D. Failure to Object to the Constructive Amendment of the Indictment.
In addition, Diaz avers .that “the counts of his indictment charging him with
violating, Title 18, United States Code, Section 241 and 242, were constructively amended
by the district court when, the jury was instructed on the bodily injury and death resulting
forms of the crime, and his attorney failed to object”. (Civ. ECF No. 1-2, p. 20). Yet, this
claim was already presented to the Court of Appeals of the First Circuit and it was rejected.
“It is settled law that a petitioner may not revive claims already decided on direct
appeal by cloaking them in ‘ineffective assistance of counsel’ garb in a §2255 petition^
Dowdell v. United States, 859 F. Supp. 2d 176, 178-79 (D. Mass. 2012) (citing United
States v. Michaud, 901 F.2d 5, 6 (1st Cir. 1990) (per curiam)). The First Circuit reviewed
this claim for plain error and concluded that there was “no ‘reasonable probability,’ of any
confusion that could have affected the outcome of the trial.” Vizcarrondo-Casanova. 763
F.3d 89,100 (1st Cir. 2014) (internal citation omitted). The First Circuit further reviewed
lis related constructive amendment claim as to the conspiracy to commit carjacking
count and found that “[wjhile there was clearly a mistake in drafting the indictment, it
wds not a mistake that resulted in any prejudicial error.” Id-, at 102. (citation omitted).
'Civ. ECF No. 13 pp. 8-9).
As such, Petitioner s claim under this ground cannot prosper.

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 10 of 11
F.rik Diaz-Cnlnn v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 10

E.

Request for an Evidentiary Hearing.
Finally, Diaz posits that based on his allegations, he is entitled to an evidentiary

rearing. A hearing is not warranted in this case. See DeCologero v. United States, 802
F.3d 155,167 (1st Cir. 2015) (“[Ejvidentiary hearings on § 2255 petitions are the exception,
not the norm, and the petitioner bears the burden of establishing the need for an
evidentiary hearing.”). “A hearing is not required if (1) the motion is inadequate on its
ace, or (2) the movant’s allegations, even if true, do not entitle him to relief, or (3) the
movant’s allegations need not be accepted as true because they state conclusions instead
of facts, contradict the record, or are “inherently incredible.” David v. United States, 134
F.3d 470,477 (1st Cir. 1998).
As explained above, the Court has found that Petitioner’s motion is inadequate, as
he has failed to prove that there was in fact ineffective assistance of counsel. Thus,
Petitioner is not entitled to a hearing.
CONCLUSION
In view of the foregoing, it is recommended that Petitioner Diaz’s § 2255 Motion
(Docket No. 1) be DENIED.
ITIS SO RECOMMENDED.
The parties have fourteen (14) days to file any objections to this report anc
recommendation. Fed. R. Crim. P. 59 (b)(2). Failure to file same within the specified
time waives the right to appeal this order. Henley Drilling Co. v. McGee, 36 F.3d 143> 150151 (1st Cir. 1994); United States v. Valencia-Copete, 792 F.2d 4,6 (1st Cir.1986); see also
Paterson-Eeitch Co. v. Mass. Mun. Wholesale Elec. Co.. 840 F.2d 985,991 (1st Cir. 1988
(“Systemic efficiencies would be frustrated and the magistrate's role reduced to that of a

Case 3:16-cv-02799-FAB Document 17 Filed 07/18/17 Page 11 of 11
Erik Diaz-Col6n v. United States of America
Civil No. 16-2799 (FAB)
Report and Recommendation
Page 11

mere dress rehearser if a party were allowed to feint and weave at the initial hearing, and
save its knockout punch for the second round.”).
In San Juan, Puerto Rico, this 18th day of July of 2017.
S/ CAMILLE L. VELEZ-RIVE
CAMILLE L. VELEZ-RIVE
UNITED STATES MAGISTRATE JUDGE

United States Court of Appeals
For the First Circuit
No. 18-1197
ERIK DIAZ-COLON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge.
Torruella, Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: June 26, 2020
he Petltlon for rehearing having been denied by the panel of judges who decided the case
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and petition for rehearing en banc be DENIED.

' By the Court:
Maria R. Hamilton, Clerk
cc:
Erik Diaz-Colon
Thomas F. Klumper
Julia Meconiates
Mariana E. Bauza Almonte
Steven Liong-Rodriguez

APPENDIX C

Victor P. Miranda-Corrada
ABOGADO-NOTARIO
WESTERNBANK WORLD PLAZA, SUITE 1905
268 MUNOZ RIVERA AVE.
SAN JUAN, PUERTO RICO 00918-2517
TELEFONO (787) 754-2005
FAX (787) 758-2448

April 27, 2011
BY E-MAIL: iose.a.contreras@usdoi.gov
Mr. Jose A. Contreras, AUSA
Torre Chardon, Suite 1201
350 Carlos Charddn St
00918 San Juan, PR
Re:

US vs. Erick Diaz-Colon
Cr. Case No. 09-228JFABU11)

Dear Mr. Contreras:
Reference is made to your communication of March 17, 2011 setting forth
the revised plea terms that the government is willing to offer my client, Erick Diaz
Colon.
In my communication to you on March 7, 2011 I called your attention to the
fact that the government's initial offer - through Mr. Bazan - assigned my client 5
points for the brandishing of a firearm under USSG §2A2.2(b)(2)(C). Nonetheless
USSG §2A2.2(b)(2)(C) assigns 3 points, not 5, when a firearm is brandished:
(2) If (A) a firearm was discharged, increase by 5 levels; (B) a
dangerous weapon (including a firearm) was otherwise used,
increase by 4 levels; (C) a dangerous weapon (including a firearm)
was brandished or its use was threatened, increase by 3 levels.
The error in the original offer carried over to the March 17, 2011 plea
proposal. Allowing the plea agreement to be entered with an erroneous
calculation would amount to ineffective assistance of counsel. I am certain that
once your have an opportunity to consider the situation set forth above you will
confirm that the correct application of the sentencing guidelines provide for a 3
point increase and not a 5 point one.

APPENDIX D

r

,* '»

*

Mr. Jose A. Contreras, AUSA
April 27, 2011
Page 2

Victor P. Miranda-Corrada
ABOGADO-NOTARIO

Making the suggested correction will still involve a 78-97 term of
incarceration which would include the 97 month sentence set forth in the
government's March 17, 2011 proposal. My client has indicated that he is willing
to plead guilty under F.R.Crim.P. Rll(c)(1)(B) which would allow the government
to argue for 97 months and the defendant for 78. Naturally, he was been advised
that such a plea does not bind the court which could sentenced him to a higher
term.
Sincerely,

VPM/dm
i :\iiwrsXtliiy.siVIni'timi’niiAcntnitt'it c.iM-s\<Tik

,i ,t

josr contrrr.is 2f* obril 21111 .diir

*

»,

Page 1 of 1
Daysi Maldonado

£

AAjLtfL

From:

Contreras, Jose 4 . (USAPR) [Jose.A.Contreras@usdoj.gov]
Sent:
Wednesday, April 27, 2011 2:09 PM
To:
Daysi Maldonado
Subject: RE:
Mr. Miranda,
My response to your le ter is as follows.
Firearm Enhancement

Under USSG 2B3.1(b)(2)(C), a 5 level increase applies if "a firearm was brandished or
possessed." The sub-se ction involving a 3 level increase pertains to a "dangerous
weapon," not a firearm . Therefore, a 5 level increase is applicable in our case. (Note USSG 2A2.2, cited in yo jr letter, is not applicable in our case.)
Sentencing Recommendation
The Government does not agree to a sentencing range. The plea agreement will
state a particular sentence.
Sincerely,
Jose A. Contreras

From: Daysi Maldonado [mailto:daysim@prtc.net]
Sent: Wednesday, April 27, 2011 1:11 PM
To: Contreras, Jose A. (USA:>R)
Subject:

APPENDIX E
4/28/2011

